 DEPARTMENT OF HOMELAND SECURITY
    Office of Inspector General


                 Letter Report:

          Citizenship Test Redesign




   Office of Inspections and Special Reviews

OIG-05-25                           June 2005
                                                                     Office of Inspector General

                                                                     U.S. Department of Homeland Security
                                                                     Washington, DC 20528




                                      June 14, 2005


MEMORANDUM TO:                Eduardo Aguirre
                              Director
                              U.S. Citizenship and Immigration Services


FROM:                         Richard L. Skinner
                              Acting Inspector General

SUBJECT:                      Citizenship Test Redesign

In 2001, the U.S. Immigration and Naturalization Service (INS), then part of the Department of
Justice, began an initiative to redesign the English and U.S. history and civics tests delivered to
naturalization applicants. This initiative has continued under the aegis of the U.S. Citizenship
and Immigration Service (USCIS) within the Department of Homeland Security. Among the
objectives of the redesign is the development of a standardized test to improve upon the current
test delivery process and test content. The redesign is to address concerns that the current testing
procedures are not uniform across all USCIS offices and do not effectively determine if a
naturalization applicant has a meaningful understanding of the English language and U.S. history
and civics.

The redesign of the naturalization tests has significant implications for USCIS operations and the
naturalization process experienced by millions of immigrants for years to come. We have
tracked recent developments in the naturalization redesign process in line with our oversight
responsibilities and out of concern for the potentially major impact of this initiative. Between
December 2004 and February 2005, we met with USCIS officials, monitored naturalization
interviews, reviewed relevant documentation, and attended public sessions of the National
Research Council’s Committee on the U.S. Naturalization Test Redesign. Initially, we
anticipated performing a traditional evaluation and review of USCIS’ test development initiative.
However, due to the early stage of test development and likelihood that important aspects of the
examination process will change, we are abbreviating our review and issuing this letter report
instead. We share some of our observations for your consideration as you move forward in the
test redesign process.
Statutory, Regulatory, and Policy Basis for Testing

The statutory basis for testing naturalization applicants on English and U.S. history and civics is
the Immigration and Naturalization Act of 1952, as amended. The Act states that for
naturalization applicants to qualify for citizenship, they must demonstrate an understanding of
the English language and a knowledge and understanding of the fundamentals of the history, and
of the principles and form of government, of the United States. USCIS regulations and policy
guidance further require applicants to demonstrate the ability to read, write, and speak words in
ordinary usage in the English language while allowing certain exceptions for age, length of
residence, or medical impairment.

USCIS determines an applicant’s ability to speak English on the basis of his or her answers to
questions normally asked in the naturalization interview. According to test administration
guidelines, reading and writing skills are to be tested using excerpts from Federal Textbooks on
Citizenship written at the elementary literacy level or other approved sources. Under current
USCIS policy, an applicant passes the English language test if he or she can read one sentence
and write another sentence to the satisfaction of an adjudicator. Each applicant is to be given
three opportunities for both the reading and writing tests.

USCIS regulations require the delivery of the U.S. history and civics test in an oral format giving
due consideration to an applicant’s background, age, length of residence in the United States, and
other factors. Applicants are to be given 10 questions on subject matter covered in the Federal
Textbooks on Citizenship. Adjudicators are encouraged to randomly generate these 10 questions
from the USCIS CLAIMS 4 database, which contains a list of 100 approved questions. To pass
the test, an applicant must answer six or more of these questions correctly.

Past Concerns with the Testing Process
S. COMMISSION ON IMMIGRATION REFORM
Coopers and Lybrand (now IBM Business Consulting Services) studied the naturalization
process on behalf of the INS in 1997. As a result of its review effort, Coopers and Lybrand
expressed a number of concerns with the naturalization testing process. The firm found that, at
the time, INS had no standard naturalization test content, testing instruments, test protocols, or
scoring system.

Also in 1997, the U.S. Commission on Immigration Reform reported that there was significant
variation among INS district offices in the methods by which they administered the
naturalization test and in the threshold number of correct answers required for passing. The
report also asserted that, in some cases, INS adjudicators scaled the tests to the perceived
educational abilities of applicants. The commission asserted that the tests used to evaluate the
knowledge of U.S. history and civics did not do so in a meaningful way. The report noted that
the civics test, for example, relies on memorization of discrete facts rather than on substantive
understanding of the basic concepts of civic participation.1



1
 Becoming an American: Immigration and Immigrant Policy, U.S. Commission on Immigration Reform,
Washington, DC, 1997, pp. 46-47.
 The commission suggested that the tests be standardized and aim to evaluate a common core of
 information to be understood by all new citizens. The commission maintained that the U.S.
history and civics test should assess whether applicants understand the basic principles of U.S.
government: for example, what it means to have freedom of speech or the freedom to assemble.
The commission further recommended that the English test accurately and fairly measure an
immigrant’s ability to speak, read, and write in English.2

To increase the meaningfulness of the exams and foster greater standardization, the commission
encouraged INS officials to develop a new U.S. history and civics exam, as well as, a new
English language test. The commission encouraged INS officials to undertake this test
development effort alongside “professional educators, pedagogical experts, and standardized test
providers.”3

A July 2000, DOJ Office of Inspector General (OIG) report on INS’s Citizenship USA initiative4
found that the English and U.S. history and civics tests were unevenly administered throughout
the INS. Among the cited contributing factors to this uneven test administration was a lack of
clear standards to assess an applicant’s ability to speak, read, and write English. The system
relied on the adjudicator’s discretion to determine the evaluation standard for each applicant.
For the U.S. history and civics test, INS regulations explicitly authorized the use of discretion to
give due consideration to the “education, background, age, length of residence in the United
States” and the “opportunities and efforts made to acquire the requisite knowledge.”5

The DOJ OIG found that for both the English and U.S. history and civics tests, the use of
discretion among INS adjudicators resulted in varying levels of test difficulty and inconsistent
standards for what was considered a passing score. The OIG recommended that INS
immediately develop a standard by which to evaluate an applicant's ability to read, write and
speak words in ordinary usage in the English language. The OIG stated that this standard would
have to be established through guidance to adjudicators and that it would have to define the
questions asked in the naturalization interview and describe how those questions should be posed
to applicants. For the U.S. history and civics exam, the OIG recommended that INS provide
guidance and training to its adjudication officers concerning the nature and number of questions
to be used to test an applicant's knowledge of U.S. history and civics. This would define the
range of questions that an adjudication officer could choose from and how the officer should
tailor the test to the individual applicant. The OIG also recommended that the guidance address
the discretion that an adjudication officer has to choose questions, including the number of
questions offered and whether there is a required passing percentage.

In December 2000, INS developed a policy to standardize testing procedures in an effort to bring
more consistency to the way adjudicators test and score applicants. The policy indicates the
source materials to be used for test questions, how many questions are to be asked, how

2
  Ibid., p. 47.
3
  Ibid., p. 47.
4
  Citizenship USA was an initiative to reduce the backlog of pending naturalization applications within one year to
the point where an eligible applicant would be naturalized within six months of application. (DOJ OIG, An
Investigation of the Immigration and Naturalization Service's Citizenship USA Initiative, July 2000)
5
  8 C.F.R. 312.2(c) (2)
    responses are to be evaluated, how many correct answers are required to pass the history and
    civics test, and how applicants are to be informed of the results.

Despite the improved guidance, immigration stakeholder groups continued to criticize INS, and
now USCIS, for inconsistently applying test procedures across offices and among adjudication
officers. Stakeholders continue to articulate concerns that variation continues to exist in test
delivery format, test content, level of difficulty, the number of questions asked, and the number
of correct answers required for passing. Some of these stakeholders have expressed their desire
for USCIS to improve testing consistency and standardization while maintaining flexibility to
fairly address the differences across the broad spectrum of applicant characteristics including,
among others, educational, professional, and cultural background, income level, age, and first
language.

Test Redesign Efforts

In 2001, INS began a redesign effort to address concerns with the testing process. INS
contracted with a firm specializing in educational test development at an estimated cost of $3
million over approximately three and a half years to restructure the naturalization test format and
procedures. The deliverables of the contract included test content development with input from
experts and stakeholders, research and study on test formats and test administration procedures,
and pilot testing of sample English test questions. The contractor tested sample English
questions at five USCIS offices from mid-March to mid-June, 2003.

Then, in April 2004, USCIS contracted with the National Research Council’s Board on Testing
Assessment (BOTA) to review the test redesign process and provide independent advice to assist
USCIS and its test development contractor optimize the validity, reliability, and fairness of the
redesigned tests. To accomplish this, BOTA established the Committee on the U.S.
Naturalization Test Redesign, consisting of faculty members from various colleges and
universities and representatives from research groups with expertise in education, testing,
political science, psychology, history, and other relevant subject areas. Among its charges, the
committee was asked to review ongoing USCIS test redesign decisions, examine pertinent data
about possible testing options, discuss technical issues, and provide feedback and assessment on
USCIS decisions.

In its interim report issued in December 2004, the committee reviewed USCIS’s redesign efforts
leading up to the first trial test of sample English questions. The committee expressed its
concern that the test development process had not met its view of professional test development
standards and that too many of the tests’ design decisions had been made by a small number of
USCIS and contractor staff. Regarding the redesigned tests as potentially controversial, high-
stakes exams, the committee encouraged USCIS to apply an “open, transparent, and
accountable” test development process.6



6
 Redesigning the U.S. Naturalization Tests: Interim Report, Committee on the U.S. Naturalization Test Redesign,
Board on Testing and Assessment, Center for Education, Division of Behavioral and Social Sciences and Education,
National Research Council, The National Academies Press, Washington, DC, 2004, p. 1.
 The committee recommended that USCIS: 1) put in place an advisory structure to advise the
 agency in making important decisions about the naturalization test redesign; 2) create a detailed
test development plan complying with testing standards with help from a technical advisory
panel and review by an oversight committee; 3) cease work on developing the content
frameworks until a clear, transparent, and publicly accountable process is defined and endorsed
by an oversight group; and 4) once testing formats are determined, develop a detailed plan for
standard setting (i.e., determining passing scores), with input from the technical advisory group
and final recommendation by the oversight committee. In support of these recommendations, the
committee asserted that the creation of a multi-tiered advisory structure overseeing the test
development process would “meet professional standards of good testing practice and …
increase the likelihood that stakeholders [would] view the [new tests] as legitimate.” 7

USCIS considered the committee’s recommendation to create an advisory structure overseeing
the test development effort and perceived that the implementation of such a structure would
require adherence to Federal Advisory Committee Act (FACA) standards.8 Federal agencies that
sponsor advisory committees must adhere to the requirements established by the FACA and
related administrative guidelines provided by the U.S. General Services Administration's (GSA)
Committee Management Secretariat. 9 These requirements include, but are not limited to, the
development of a charter requiring public notification and filing with Congress, development of
ethics standards and procedures for the advisory body, identifying membership structure and
potential members, and notifying members of selection. Once members have been selected, the
sponsoring agency must solicit financial disclosure information from members, determine
whether members have a conflict of interest, and collect personnel information associated with
members’ status as special government employees. Then, when committee sessions begin,
members are to receive an orientation to the sponsoring agency and staff, FACA requirements,
their special employee status, and ethics policies and procedures. As committee meetings
progress, the sponsoring agency has obligations to record meeting minutes, archive records,
respond to public inquiries, advertise meetings, develop meeting agendas, prepare committee
review materials, coordinate meeting logistics, and submit information for a comprehensive
annual review by GSA.

Apart from a staff support burden, advisory committee activities sometimes occur at the expense
of timeliness. A committee’s activities require public notification and coordination among
committee members and, therefore, can be time consuming, slowing the advisory committee’s
ability to make recommendations and, ultimately, the sponsoring agency’s ability to make
decisions.



7
  Ibid., p. 7.
8
  The Federal Advisory Committee Act (Public Law 92-463, 5 U.S.C., App) was enacted by Congress in 1972. The
purpose of FACA is to ensure that advice rendered to the executive branch by various advisory committees be both
objective and accessible to the public. FACA formalized a process for establishing, operating, overseeing, and
terminating these advisory bodies that offer federal officials information and advice on a broad range of issues
affecting federal policies and programs. (The Federal Advisory Committee Act (FACA) Brochure, General Services
Administration, Office of Governmentwide Policy, Committee Management Secretariat, Washington, DC, 2004.)
9
  In 1977, Executive Order 12024 delegated to the Administrator of GSA all responsibilities of the President for
implementing the FACA.
 Resolving differences of opinion within advisory committees also may prove difficult. FACA
 requires that committee memberships be "fairly balanced in terms of the points of view
represented and the functions to be performed." In balancing committee memberships, agencies
are expected to assure that major and sometimes strongly-opposing viewpoints are represented to
provide a foundation for developing advice and recommendations that are fair and
comprehensive.10 In light of the potential magnitude of public input and the range of strong
opinions that currently exist with regard to immigration and naturalization issues, it is
conceivable that the differences in opinion could become irreconcilable.

After weighing the BOTA committee’s recommendations, USCIS opted to continue
naturalization test redesign on its own. It did not renew the BOTA committee’s contract or
fund its plans for future analysis and reporting on the test redesign effort.

The BOTA committee correctly asserted that the naturalization test development process
should be open, transparent, accountable, and technically sound. The committee also
accurately maintained that its proposed advisory structure could have supported these test
development goals. Nevertheless, a test development process that is sufficiently open,
transparent, accountable, and technically sound can be achieved by other means. The pursuit of
such alternative test development processes is USCIS’s prerogative.

Future Challenges in Naturalization Test Redesign

Whatever the character of its test development process, USCIS will face at least three major
challenges as it proceeds with the naturalization test redesign effort. First, USCIS management
must ensure that the corresponding test development process reaches a timely conclusion and
does so without undue expense. Second, while new examinations are being developed, USCIS
should more strenuously enforce internal compliance with current test administration standards.
Finally, in crafting new naturalization exams, USCIS must resolve important technical and
policy issues stemming from tensions within and between statutory guidance and test
development goals and objectives.

Timeliness and Financial Considerations

Given concerns with the current examination process, it is important for USCIS to advance the
redesign effort in a timely fashion. Current plans already reflect delays in the test development
process. The redesign effort began in 2001 and was initially projected to end in 2006. USCIS,
however, recently announced January 2007 as its “flexible” target date for implementation. To
advance the project in a timely way, USCIS should establish overall test redesign objectives with
a clear set of project milestones and unambiguous lines of responsibility for accomplishing tasks
and completing deliverables. USCIS should clearly define what it expects staff and contractors
to accomplish and keep them focused on their tasks.

USCIS also should continue to assess its test development plans to determine whether they are
the most economical and effective means of meeting USCIS’s statutory obligations. USCIS

10
 The Federal Advisory Committee Act (FACA) Brochure, General Services Administration, Office of
Governmentwide Policy, Committee Management Secretariat, Washington, DC, 2004.
 must continue to weigh the growing incremental costs of the redesign effort against the benefits
 of a redesigned test and test process. To the extent possible, we urge USCIS to use the products
and knowledge obtained in its initial redesign efforts and evaluate the potential for using existing
test materials and commercial off the shelf products. As USCIS has expended significant funds
and time up to this point, we urge that some of this effort be salvaged.

Interim Test Administration

Current plans call for the new tests to be delivered more than 18 months hence. In the meantime,
USCIS should ensure that its adjudication offices are implementing the standardization
procedures described in its December 26, 2000 guidance memorandum. Adjudicators should be
using the proper source materials, test format, procedures, and methods for determining passing
scores. We strongly urge continuing and active training for adjudicators and monitoring of
testing practices to assure compliance with current policies.

Technical and Policy Challenges

In moving the test redesign process forward, USCIS faces three major technical and policy issues
that require management attention.

Abstract U.S. History and Civics Concepts and Plain English

The first of these challenges relates to the conflict between the need to test knowledge of abstract
U.S. history and civics concepts and the limited test standard for English language proficiency.
This conflict arises from the competing knowledge requirements set out in law and those
articulated as test redesign objectives. The Immigration and Naturalization Act and its
corresponding regulations set the threshold for successful demonstration of English language
speaking, reading, and writing skills at an “ordinary usage” level. Despite this, much of the
discussion surrounding the effort to increase the meaningfulness of the exams has centered on
ensuring that applicants demonstrate an understanding of more complex aspects of U.S. history
and civics than is presently required. Accordingly, if USCIS is to satisfy its statutory obligations
while also meeting an important test redesign objective, it must arrive at an examination process
that provides applicants who have a limited English language proficiency with an opportunity to
effectively demonstrate their knowledge of more complex ideas than they may have the English
language skills to understand or communicate. The tension between these competing
requirements presents a major technical challenge for test developers and potential policy issues
for USCIS management.

Balancing “Due Consideration” Against Test Uniformity

Another complicating factor in the naturalization test redesign effort stems from the current
requirement that test administrators provide “due consideration” to applicant traits in
administering part of the examination process while simultaneously ensuring that the tests are
“uniformly” implemented. The U.S. Code states that, “the examination of applicants for
naturalization … shall be uniform throughout the United States.”11 This standard of uniformity
11
     8 USC § 1443
 is, however, somewhat undermined by current regulations related to the exam. These
 regulations provide test administrators with latitude in “choosing the subject matters, in
phrasing questions and in evaluating responses” during the U.S. history and civics test. Under
current regulations, test administrators are to exercise this latitude in “due consideration … to the
applicant's education, background, age, length of residence in the United States, opportunities
available and efforts made to acquire the requisite knowledge, and any other elements or factors
relevant to an appraisal of the adequacy of the applicant's knowledge and understanding.”12 This
broad requirement to exercise latitude in administering the U.S. history and civics test presently
amounts to a mandate to customize, rather than standardize test administration. Moreover,
absent strict rules on how to apply “due consideration,” this regulatory guidance will contribute
an element of capriciousness to the examination process and guarantee significant variation in
how the test is administered from one test administrator to the next. Without detailed and
carefully construed standards for applying “due consideration,” a redesigned naturalization test
will not meet the requisite standard of uniformity.

Achieving Meaningful Change without Affecting Test Difficulty

Perhaps an even greater technical challenge to the test redesign effort is USCIS’ goal of making
the tests more “meaningful” and yet no more difficult nor any easier than the current tests. This
will be extremely difficult to accomplish due to the diversity in the applicant base. Any changes
to the content or testing procedures will almost certainly have the effect of making the tests more
difficult for some and easier for others. Some stakeholders perceive the tests to be too easy as
they are, claiming that the U.S. history and civics test, for example, requires only memorization
of facts, and does not test a deeper understanding of citizenship and civic participation in the
United States. Others assert that the current tests are already too difficult and an attempt to make
the tests more “meaningful” is, in actuality, an attempt to make the tests more difficult.

Regardless, USCIS needs to articulate how it intends to achieve its goal of making the test
neither more difficult nor any easier and how it will validate that test difficulty. This is a
challenge, as USCIS has established little specific information on how different applicant
populations fare under the current testing regime. Without detailed information on current test
performance, there is no established baseline against which to compare new tests’ degree of
difficulty.

Furthermore, on the surface, the declared objective of fielding a new set of naturalization tests
that are no more difficult, nor any easier than the current exams appears to call into question the
need for substantial efforts toward a redesign, at all. USCIS must better communicate why it is
seeking to reform the current tests when it is not seeking any change in the bottom-line impact
the tests have on which applicants or what proportion of applicants pass the tests.




12
     8 C.F.R. 312.2(c)(2)
 We extend our appreciation to USCIS for the cooperation and courtesies extended to our staff.
 Should you have any questions, please call me, or your staff may contact Robert L. Ashbaugh,
Assistant Inspector General for Inspections and Special Reviews, at (202) 254-4100. We hope
our observations will be of assistance as you move forward.
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations –
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.
